No.19-619
INTHE

CISCOSYSTEMS, INC.,

Petitioner,

V.

SRI INTERNATIONAL, INC.

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
CERTIFICATE OF SERVICE
I, William F. Lee, a member of the bar of this Court, hereby certify that, on this
29th day of January, 2020, all parties required to be served have been served copies of
the Reply Brief for Petitioner in this matter by overnight courier to the address below.
FRANKSCHERKENBACH
FISH & RICHARDSON, PC
ONE MARINA PARK DRIVE
Boston, MA 02210-1878
(617) 521-7883
scherkenbach@fr.com

WILLIAM F. LEE
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
william.lee@wilmerhale.com

